No. 20-1312
IN THE SUPREME COURT OF THE UNITED STATES
XAVIER BECERRA, SECRETARY
OF HEALTH AND HUMAN SERVICES, PETITIONER
v.
EMPIRE HEALTH FOUNDATION,
FOR VALLEY HOSPITAL MEDICAL CENTER
.
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONER, via e-mail and first-class mail, postage
prepaid, this 8th day of June 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,998 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on June 8, 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
June 8, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to
mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If
that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1312
BECERRA, XAVIER, SECRETARY OF HEALTH AND
HUMAN SERVICES
EMPIRE HEALTH FOUNDATION, FOR VALLEY
HOSPITAL MEDICAL CENTER

DANIEL J. HETTICH
KING & SPALDING LLP
1700 PENNSYLVANIA AVENUE, NW
SUITE 200
WASHINGTON, DC 20006
202-626-9128
DHETTICH@KSLAW.COM
TERESA A. SHERMAN
PAUKERT & TROPPMAN, PLLC
522 W. RIVERSIDE AVE.
SUITE 560
SPOKANE , WA 99201
509-232-7760
TSHERMAN@PT-LAW.COM
ANNE MARGARET VOIGTS
KING & SPALDING LLP
601 S. CALIFORNIA AVE., STE. 100
PALO ALTO, CA 94024
650-422-6710
AVOIGTS@KSLAW.COM

